U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


  FOLLOWUP OF RECOMMENDATIONS
           CONCERNING THE
   HAWAIIAN HOMES COMMISSION,
      OFFICE OF THE SECRETARY

             REPORT NO. 00-I-500
                  JUNE 2000
U.S. Department    of the Interior                            Office of Inspector   General

                             EXECUTIVE          SUMMARY

                       Followup of Recommendations        Concerning
                            the Hawaiian Homes Commission,
                                  Office of the Secretary
                                   Report No. 00-I-500
                                         June 2000

BACKGROUND

The Hawaiian Homes Commission Act of 1920 (42 Stat. 108) was enacted in July 192 1 “to
rehabilitate native Hawaiians on lands given the status of Hawaiian home lands.” The Act
was administered by the Hawaii territorial government until the Hawaiian Islands became
a state in 1959. At that time, the State of Hawaii assumed responsibility for the
administration of the Home Lands Program through the Department of Hawaiian Home
Lands (DHHL), which was headed by the Hawaiian Homes Commission, a policy-making
board. Additional State and Federal legislation related to Hawaiian home lands was enacted
in 1995.

As of June 30,1998, the DHHL owned about 197,673 acres of land on the islands of Kauai,
Oahu, Molokai, Maui, and Hawaii and had issued 5,189 residential leases; 1,057 agricultural
leases; 30 1 pastoral leases; 118 general leases; and 94 revocable permits, which included
permits for agricultural, pastoral, and commercial purposes. For the fiscal year ended
May 3 1, 1999, the DHHL had total revenues of $126.4 million and expenditures of
$55.7 million. In addition, the DHHL reported outstanding direct loans of $48.9 million and
guaranteed loans of $127.8 million.

OBJECTIVE

The objective of our audit was to determine whether the U.S. Department ofthe Interior, the
State of Hawaii, the Attorney General of Hawaii, and the Hawaiian Homes Commission had
satisfactorily implemented the eight recommendations contained in our March 1992 audit
report “Hawaiian Homes Commission, Of&e of the Secretary” (No. 92-I-641).

RESULTS     IN BRIEF

Of the eight recommendations contained in the March 1992 report, we found that seven
recommendations had been resolved and implemented and one recommendation had been
withdrawn. The followup report did not contain any recommendations.
                                                                         N-IN-OSS-005-99-M

              United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                                   Washington,D.C.20240




                                  AUDIT REPORT

Memorandum

To:        Assistant Secretary for Policy, Management and Budget

From:


Subject:   Audit Report on Followup of Recommendations Concerning the Hawaiian
           Homes Commission, Office of the Secrets    (No. 00-1-500)


This report presents the results of our followup review of recommendations concerning the
HawaiianHomes Commission. The objective of our audit was to determine whether the U.S.
Department of the Interior, the State of Hawaii, the Attorney General of Hawaii, and the
Hawaiian Homes Commission had satisfactorily implemented the eight recommendations
contained in our March 1992 audit report “Hawaiian Homes Commission, Offlce of the
Secretary” (No. 92-I-641) and whether any new recommendations were warranted.

BACKGROUND

The Hawaiian Homes Commission Act of 1920 (42 Stat. 108) was enacted in July 192 1 “to
rehabilitate native Hawaiians on lands given the status of Hawaiian home lands.” The Act
was administered by the Hawaii territorial government until the Hawaiian Islands became
a state in 1959. At that time, the State of Hawaii assumed responsibility for the
administration of the Home Lands Program through the Department of Hawaiian Home
Lands (DHHL), which was headed by the Hawaiian Homes Commission, a policy-making
board.

In 1991, the Legislature accepted the Governor’s “Action Plan to Address Controversies
under the Hawaiian Home Lands Trust and Public Land Trust.” The Governor convened a
task force composed of representatives from the DHHL, the Office of State Planning, the
Department of Land and Natural Resources, and the Department of the Attorney General.
The task force was responsible for verifying title claims, determining whether improper uses
were still in existence and whether these uses should be canceled or continued if authorized
by the Commission, conducting appraisals and determining appropriate compensation for
past and continued use of Hawaiian home lands, and pursuing all options for the return of
lands and compensation from the Federal Government for wrongful actions during the
territorial period. The task force’s actions led to 16,5 18 acres of public lands being conveyed
by the State to the Hawaiian Homes Commission.


                                               3
In June 1995, the Governor approved Act 14, which, among other provisions, reaffirmed
the State’s intent to resolve controversies related to the Hawaiian home lands trust that arose
through July 1, 1988; prohibited any and all future claims againstthe State; and established
a trust fund to provide “a substantial, secure, and predictable funding source for the
department of Hawaiian home lands.” Act 14 required the State to make annual deposits of
$30 million for 20 years into the trust fund, beginning in fiscal year 1996.

In November 1995, the U.S. Congress enacted the Hawaiian Home Lands Recovery Act of
1995 (Public Law 104-42) which authorized the United States to convey certain real
property to the DHHL in exchange for full settlement and reIease of all claims arising from
or relating to United States ownership and continued use of real property identified as
“available lands” for native Hawaiians under the Hawaiian Homes Commission Act of 1920.
On August 3 1,1998, the United States and the State of Hawaii entered into a memorandum
of agreement to implement the Hawaiian Home Lands Recovery Act of 1995.

As of June 30,1998, the DHHL owned about 197,673 acres of land on the islands of Kauai,
Oahu, Molokai, Maui, and Hawaii and had issued 5,189 residential leases; 1,057 agricultural
leases; 301 pastoral leases; 118 general leases; and 94 revocable permits, which included
permits for agricultural, pastoral, and commercial purposes. For the fiscal year ended
June 30, 1999, the DHHL had total revenues of $299.2 million and expenditures of
$80.1 million. In addition, the DHHL reported outstanding direct loans of $48.9 million and
guaranteed loans of $127.8 million.

SCOPE OF AUDIT

The scope of the audit included a review of actions taken by the U.S. Department of the
Interior, the State of Hawaii, the Attorney General of Hawaii, and the Hawaiian Homes
Commission to implement the eight recommendations contained in our March 1992 audit
report. To accomplish our audit objective, we interviewed officials and/or reviewed records
at the State of Hawaii’s Office of the Governor; the State’s Office of the Auditor; the
Departments of Hawaiian Home Lands, Accounting and General Services, and the Attorney
General; and the Hawaiian Homes Commission. In addition, we interviewed officials from
the U.S. Department of the Interior’s Office of the Secretary and Office of Insular Affairs;
the U.S. Departments of Housing and Urban Development and Veterans Affairs; and the U.S.
Small Business Administration.

The audit was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances.

As part of the audit, we evaluated the Commission’s internal controls related to the DHHL’s
financial and operational management of the Hawaiian Home Lands Program to the extent
that we considered necessary to accomplish the audit objective. With regard to the prior
audit recommendations, we did not identify any internal control weaknesses. During our
followup audit, however, we identified internal control weaknesses related to the collection

                                              4
of delinquent loans and property taxes owed by Hawaiian Home Land lessees and to the legal
limit on the total amount of the outstanding guaranteed loans made to Hawaiian Home Land
lessees. These weaknesses will be discussed in a separate audit report on the Department of
Hawaiian Home Lands.

PRIOR AUDIT COVERAGE

Our March 1992 audit report had eight recommendations: three recommendations to the
Secretary of the Interior, three recommendations to the Governor of Hawaii, one
recommendation to the Attorney General of Hawaii, and one recommendation to the
Hawaiian Homes Commission. In addition to our March 1992 audit report that was the
subject of this followup audit, in December 1993, the State’s Office of the Auditor issued the
audit report “Management and Financial Audit of the Department of Hawaiian Home Lands”
(No. 93-22), which stated that (1) the Commission had not asserted its authority to direct and
hold the DHHL accountable for effectively managing the program, resulting in the
ineffective collection of delinquent loans, and (2) the DHHL continued to guarantee loans,
even though it had exceeded the statutory limit by more than $5.8 million. Our current audit
disclosed that both deficiencies still existed, and those issues will be discussed in our
separate audit report on the Department of Hawaiian Home Lands.

                                RESULTS OF AUDIT

Of the eight recommendations made in the March 1992 report, we found that seven
recommendations had been resolved and implemented and one recommendation had been
withdrawn (see the Appendix), as discussed in the paragraphs that follow.

Prior Audit Report Recommendations

Recommendation A. 1. The Secretary of the Interior [should1 direct appropriate Department
of the Interior officials to establish an oversipht system for monitoring the State of Hawaii’s
activities in discharging State trust obligations in regard to the Hawaiian Homes Commission
Act.

The prior audit found that the Department did not effectively fulfill its oversight
responsibility to ensure that the State discharged its trust obligations for the Hawaiian Home
Lands Program. A 1983 Federal-State Task Force had recommended that the United States
(1) be aware of the manner in which the State manages and disposes of trust lands, (2) satisfy
itself that the State is not abusing its responsibilities as trustee, and (3) institute proceedings
against the State for breach of trust if the State fails to properly discharge its responsibilities.
Although this 3-part statement of the responsibilities was to be reflected in the Department’s
decision making as lead agency and in the duties assigned to the official who was designated
as the Department’s point of contact, the Department had not effectively fulfilled its
oversight responsibilities.
In our followup review, we found that in February 1992, the Secretary appointed a
Designated Officer to monitor compliance with the Hauaiian Homes Commission &t. The
Department had also implemented a monitoring system that involved (1) reviewing and
approving all land exchanges under the Act and (2) reviewing any amendments to the Act
requested by the State. Under the Act, such amendments are required to be reviewed by the
Secretary. Therefore, we consider the recommendation resolved and implemented, and no
further action is required.

Recommendation A.2. The Secretarv Ishouldl inform the State of Hawaii of the tvnes of
assistance that the Deuartment is willing to provide and identifithe circumstances which will
or will not require reimbursement.

The prior audit found that the 1983 Federal-State Task Force had recommended that the State
and the United States each make matching contributions of $25 million annually to survey
the lands to be awarded and to design and construct needed site improvements, such as roads,
water, utilities, and sewer systems. Neither the State nor the United States, however, had
made the required matching contributions. The prior audit also found that the Hawaiian
Homes Commission Act did not require the Federal Government to make contributions of
funds or services and that recent Federal assistance provided to the Commission had been
minimal. In 1989, the Commission received Community Development Block grants totaling
$1.2 million from the U.S. Department of Housing and Urban Development for the purpose
of constructing road and drainage improvements on homestead lands.

In our followup review, we found that the Department had subsequently entered into
agreements with the DHHL to provide technical assistance on investigating the groundwater
resources on Molokai. A preliminary study of the Kualapuu Aquifer on Molokai began in
April 1992 to compile well construction information and to design a groundwater availability
study. A subsequent study on groundwater resources in Molokai was performed by the U.S.
Geological Survey in October 1996. In addition, in a February 1992 letter to the the Offtce
of Inspector General, the Designated Officer stated that “we have often made known to the
Department of Hawaiian Home Lands our willingness to provide technical assistance from
Interior’s resources. . . . Our position has therefore been that we stand ready to help.” Since
our March 1992 report, Interior has not provided the DHHL with any financial assistance or
required that the DHHL provide reimbursement for technical assistance received.
Accordingly, we consider the recommendation resolved and implemented, and no further
action is required.

Recommendation A.3. The Secretarv [should1 determine and inform the Congress of any
amendments to the Act. enacted by the State of Hawaii, which diminish the benefits to native
Hawaiians or are otherwise contrarv to the intent of the Act.

The prior audit found that improper land transfers and improper land use occurred and that
1980 correspondence from the U.S. Departments of Justice and the Interior indicated that
basic problems continued in the State’s administration of the Hawaiian Homes Commission
Act. The intent of the recommendation was to ensure that any future amendments to the Act



                                              6
did not result in transfers or uses of Hawaiian home lands that would further diminish the
benefits available to native Hawaiians.

In our followup review, we found correspondence indicating that the Department had
reviewed amendments to the Act and that none of the amendments diminished benefits to
the native Hawaiians.     Therefore, we consider the recommendation resolved and
implemented, and no further action is required.

Recommendation A.4. The Governor of the State of Hawaii [should] direct the Hawaiian
Homes Commission to develop a comprehensive home lands infrastructure development plan
that provides for the systematic urenaration of lots for use and occupancv.

The prior audit found that the State’s performance as trustee for the Hawaiian Home Lands
Program was “highly deficient” in terms of meeting the needs of its beneficiaries.
Specifically, the Commission had not made significant progress in awarding homestead lots
because it did not have a comprehensive land use or infrastructure development plan.

In our followup review, we found that in a June 4, 1992 letter to the Office of Inspector
General, the Governor concurred with the recommendation and stated that he “will direct”
the DHHL “to develop such plan.” On July 16, 1999, the Governor approved the
expenditure of $100,000 to update the DHHL’s general plan. Section 4.05 ofthe request for
the proposals required potential contractors to “compile and summarize existing information
relating to land use for the Hawaiian home lands inventory.” The section further stated,
“Summary profiles shall include, but not be limited to, land, water, infrastructure, financing,
beneficiary information, etc.” On August 12, 1999, a contract to update DHHL’s general
plan was awarded. Therefore, we consider the recommendation resolved and implemented,
and no further action is required.

Recommendation AS. The Governor [should1 uropose legislation, based on the results of
the Homes Commission’s infrastructure develonment nlan, to sufficientlv fund the Home
Lands Program in accordance with the State Constitution.

Recommendation A.6. The Governor lshouldl nrouose legislation to provide adequate
funding to the Hawaiian Homes Commission’s Hawaiian home loan fund.

The prior audit found that the Commission did not provide adequate financial assistance to
lessees who were awarded homesteads during an accelerated application program. Also,
lessees who were selected to receive homesteads after the acceleration period did not receive
a homestead award unless they qualified for a Federal Housing Administration or Farmers
Home Administration loan guaranteed by the DHHL. These deficiencies occurred because
the Commission changed its policy from distributing usable land and providing financial
assistance to constructing turn-key houses for sale only to beneficiaries who qualified for
Federal Housing Administration or Farmers Home Administration loans. As a result, of the
1,73 1 beneficiaries who were awarded residential lots during the acceleration program, only
105 had built homes, and native Hawaiians were denied homestead awards unless the!
qualified for home loans from sources external to the Commission.

                                              7
I



     Our followup review disclosed that in the June 4, 1992 letter, the Governor concurred with
    the recommendation and stated that he “will submit an administration budget request to
     sufficiently fund the infrastructure development plan.” Further, the letter stated that “in the
     1992 legislative session, the Governor requested $25 million for infrastructure development
    for DHHL” and that the Governor “will work with DHHL to request sufficient capital
    improvement project funds each legislative session.” We also found that in 1995, the
    Legislature and the Governor approved Act 14 relating to Hawaiian home lands. Section
    6 of the Act states that “the State, while not admitting the validity of any claims, hereby
    resolves and satisfies all controversies and claims encompassed by this Act by: (1) the
    establishment ofthe Hawaiian home lands trust fund and the requirement that the State make
    twenty annual deposits of $30 million into the trust fund.” In addition, Section 7 of the Act
    states, “Money of the Hawaiian home lands trust fund shall be expended by the department
    as provided by law upon approval by the commission and shall be used for capital
    improvements and other purposes undertaken in furtherance of the Act.” The Governor’s
    Chief of Staff told us that the DHHL was required to submit an annual capital improvement
    projects budget to the Governor for his approval but, because of the economic downturn in
    the State’s economy, less funding has been available, which affects not only the DHHL but
    other governmental agencies. He further stated that he considered the State’s settlement of
    $600 million ($30 million for 20 years) to the DHHL to be sufficient for capital improvement
    projects.

    Additionally, DHHL’s Administrative Services Officer stated in a February 3,200O letter to
    the Pacific Offrice of the Office of Inspector General that “significant events” had occurred
    since the1 992 audit, including the $600 million settlement and the acquisition of additional
    lands from the Federal and State governments. The letter further stated that these events
    provided “new development opportunities . . . to DHHL” and “the department has enjoyed
    a reliable, consistent source of funding [the settlement funds] for which to plan and develop
    its lands.” Based on these statements, we consider the two recommendations resolved and
    implemented, and no further action is required.

    Recommendation B. 1. The Commission [should] suspend imnlementation of the lo-vear
    plan until (a) a viable needs assessment has been Performed that accurately identities the
    extent of the eligible native Hawaiian uouulation and of its associated needs and (b) it can
    be demonstrated that the nlan is financiallv viable.

    The prior audit found that the Commission embarked on a highly speculative, $2.45 billion
     1O-year plan to construct 14,000 turn-key housing units, primarily in master-planned
    communities, including single-family dwellings, multi-family units, elderly housing, and
    rental units. The lo-year plan was undertaken because the Commission had made little
    progress in its traditional approach of preparing and awarding homestead lots and providing
    financial assistance to the beneficiaries. However, the IO-year plan was not supported by
    identified program needs or based on financial feasibility, and the plan imposed additional
    qualifying criteria on beneficiaries for receiving homestead awards. As a result, the plan (1)
    would eliminate from the program native Hawaiians who may not qualify financially for
    mortgage loans and (2) would require families to relocate to less populated and less
    economically developed islands to receive leases.

                                                   8
In our followup review, we found that in a memorandum dated July 6, 1992 to the Assistant
Secretary for Policy, Management and Budget, the Assistant Inspector General for Audits
stated that the recommendation was withdrawn based on the June 4. 1992 letter from the
Commission’s Chairman, which stated that there have been “discussions between staff and
the Commission as to the goal of building 14,000 homes over a lo-year period, but a &
to build 14,000 homes has never been presented to the Commission for its review and
approval.” The Chairman also stated, “We do not view the goal of building 14,000 housing
units over a ten-year period as a plan for which present and future resources have been
committed.” Since the recommendation was previously withdrawn, no further action is
required.

Recommendation B.2. The State Attorney General Ishouldl investigate the ureliminan,
dealings between the Department of Hawaiian Home Lands and the private investor and
developer to determine whether contracting or other provisions of State law have been
violated.

The prior audit found that the Commission may have violated the State’s development laws
by seeking private financing for the Kawaihae development project. In our followup review,
we found that in a February 14, 1992 letter to the Office of Inspector General, the Attorney
General stated that the conduct of Commission officials regarding the Kawaihae
development project had been investigated and that no violations of State law had occurred.
Based on this statement, we consider the recommendation resolved and implemented, and
no further action is required.

Since this report does not contain any recommendations,      a response is not required.

Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Offrce of Inspector
General to list this report in its semiannual report to the Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.




cc:   Honorable Benjamin T. Cayetano, Governor, State of Hawaii
      Earl I. Anzai, Attorney General, State of Hawaii
      Raymond C. Soon, Chairman, Hawaiian Homes Commission




                                               9
                                                                   APPENDIX



        STATUS OF RECOMMENDATIONS     AND
      CORRECTIVE ACTIONS FOR AUDIT REPORT
          “HAWAIIAN HOMES COMMISSION,
            OFFICE OF THE SECRETARY”
                (REPORT NO. 92-I-641)

Recommendations   Status of Recommendations     and Corrective Actions

    A.l-A.6       Implemented.    No further action is required.

      B.l         Withdrawn. No further action is required.

      B.2         Implemented.    No further action is required.




                             10
                    ILLEG;\L OR WASTEFUL ACTIVITIES
                         SHOULD BE REPORTED TO
                   THE OFFICE OF INSPECTOR  GENERAL


                      Internet       Complaint      Form Address


                     http://www.oig.doi.gov/hotline_form.html



                    Within       the Continental      United States

U.S. Department of the Interior                           Our 24-hour
Office of Inspector General                               Telephone HOTLINE
1S?9 C Street, N.W.                                       l-SOO-424-5081 or
Mail Stop 5341 - MIB                                      (202) 208-5300
Washington, D.C. 20240-0001
                                                          TDD for hearing impaired
                                                          (202) 208-2420



                   Outside        the Continental       United States

                                     Caribbean   Region

U.S. Department of the Interior                           (703) 235-9223
Office of Inspector General
Eastern Division - In\.estigations
4040 Fairfax Drive
Suite 303
.%rlington, Virginia 22203

                                       Pacljic Region

U.S. Department of the Interior                           (67 1) 647-6060
Office of InspeClor General
Guam Field Office
4 15 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
                                   1L
                                  @J




U.S. Department of the Interior
Office of Inspector General
1839 C Street, NW
Mai1 Stop 5341- MIB
Washington, D.C. 20240-0001

Toll Free Number
      l-800-424-5081

FTSKommercial   Numbers
    (202) 208-5300
    TDD (202) 203-2120
